TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Enterprise Collection Strategy
                  Organization Has Centralized Management
                   of the Collection Organization; However,
                          Performance Measures and
                        Key Roles Need to Be Developed



                                           June 7, 2013

                              Reference Number: 2013-30-054




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


THE ENTERPRISE COLLECTION                              emerging issues, and improve organizational
STRATEGY ORGANIZATION HAS                              performance.
CENTRALIZED MANAGEMENT OF THE                          However, the IRS did not create performance
COLLECTION ORGANIZATION;                               measures for the ECS to sufficiently determine
HOWEVER, PERFORMANCE MEASURES                          the success of the transition, evaluate ongoing
AND KEY ROLES NEED TO BE                               ECS performance, or measure the ECS’s effect
DEVELOPED                                              on overall Collection organization operations.
                                                       Without measures, IRS management may not
                                                       have complete information to make decisions
Highlights                                             about changes needed to improve performance.
                                                       In addition, IRS management did not document
Final Report issued on June 7, 2013                    roles and responsibilities for eight of the
                                                       21 individual ECS groups in the four divisions.
Highlights of Reference Number: 2013-30-054            Without clearly defined roles and
to the Internal Revenue Service Deputy                 responsibilities, redundancies and
Commissioner for Services and Enforcement.             inconsistencies may continue to exist among the
IMPACT ON TAXPAYERS                                    two operating divisions and four organizations
                                                       responsible for collection activities.
The Enterprise Collection Strategy (ECS)
organization was created in January 2011 with a        WHAT TIGTA RECOMMENDED
goal of improving organizational performance by        TIGTA recommended that the IRS consider
reorganizing Collection operations to eliminate        additional performance measures to assess the
redundancies and inconsistencies. While the            benefits of the ECS organization, prepare an
ECS organization has centralized management            evaluation report to document the results of the
of the Collection organization, the IRS did not        reorganization and to analyze any need for
develop sufficient performance measures or             changes, and clearly define the roles and
sufficiently define organization roles and             responsibilities of the ECS organization to
responsibilities. It is important that the IRS         ensure that redundancies and inconsistencies
measure progress towards achieving its goal            have been eliminated.
because eliminating redundancies and
inconsistencies within Collection organization         In their response to the report, IRS officials
operations will help to ensure that taxpayers are      agreed with the recommendations and plan to
treated more equitably in collection matters.          take appropriate corrective actions.

WHY TIGTA DID THE AUDIT
In February 2010, the Deputy Commissioner for
Services and Enforcement chartered the
Collection Process Study to conduct a
broad-based review of the IRS’s collection
processes. This study recommended the
creation of a unified Collection organization. As
a result, the ECS was created. This audit was
initiated to assess the IRS’s effectiveness in
establishing and implementing the ECS to
achieve its goal.
WHAT TIGTA FOUND
The ECS has centralized management of the
Collection organization. The operating units are
working together to manage resources, identify
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 7, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Enterprise Collection Strategy Organization
                             Has Centralized Management of the Collection Organization; However,
                             Performance Measures and Key Roles Need to Be Developed
                             (Audit # 201230011)

 This report presents the results of our review to determine the Internal Revenue Service’s
 effectiveness in establishing and implementing the Enterprise Collection Strategy organization so
 that it could achieve its goal of improving organizational performance by reorganizing Collection
 organization operations to eliminate redundancies and inconsistencies. This audit is included in
 our Fiscal Year 2013 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations.
 If you have any questions, please contact me or Augusta R. Cook, Acting Assistant Inspector
 General for Audit (Compliance and Enforcement Operations).
                     The Enterprise Collection Strategy Organization Has Centralized
                          Management of the Collection Organization; However,
                      Performance Measures and Key Roles Need to Be Developed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          The Enterprise Collection Strategy Organization Has
          Centralized Management of Collection Organizations ................................. Page 6
          Performance Measures Needed to Determine the
          Success of the Enterprise Collection Strategy
          Organization Were Not Established.............................................................. Page 7
                    Recommendations 1 and 2: .............................................. Page 9

          The Roles and Responsibilities of the Enterprise
          Collection Strategy Organization Were Not
          Adequately Documented............................................................................... Page 10
                    Recommendation 3:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Enterprise Collection Strategy Organization Chart ............. Page 18
          Appendix V – Collection Process Study’s Organizational Structure
          and Alignment Recommendations ................................................................ Page 19
          Appendix VI – Glossary of Terms ................................................................ Page 21
          Appendix VII – Management’s Response to the Draft Report ..................... Page 23
        The Enterprise Collection Strategy Organization Has Centralized
             Management of the Collection Organization; However,
         Performance Measures and Key Roles Need to Be Developed




                        Abbreviations


CPS               Collection Process Study
ECS               Enterprise Collection Strategy
FY                Fiscal Year
IRM               Internal Revenue Manual
IRS               Internal Revenue Service
SB/SE             Small Business/Self-Employed
W&I               Wage and Investment
                    The Enterprise Collection Strategy Organization Has Centralized
                         Management of the Collection Organization; However,
                     Performance Measures and Key Roles Need to Be Developed




                                               Background

The Internal Revenue Service (IRS) Collection organization (hereafter referred to as Collection)
is responsible for bringing taxpayers into full compliance and helping them understand their tax
requirements. Collection responsibilities include:
          Securing delinquent returns.
          Collecting balances due.
          Detecting potential fraud.
          Using enforcement actions when appropriate.
          Addressing and deterring trust fund1 noncompliance.
          Resolving accounts with installment agreements and offers in compromise when
           appropriate.
          Reducing the Tax Gap.
The collection process begins when a taxpayer voluntarily files a return without full payment or
when the IRS proposes a tax assessment through one of its compliance programs. The process
ends when the account balance reaches zero or when the collection statute of limitations expires.
Collection processes involve multiple stages and routing decisions handled via paper notices, call
operations, and field personnel. Until January 2011, the Small Business/Self-Employed (SB/SE)
Division oversaw all Collection policy changes, which also involved multiple steps across
operating divisions. As of September 30, 2010, over 16,000 employees administered IRS
collection enforcement programs. These employees worked in two operating divisions and four
organizations responsible for collection activities.
          SB/SE Division Collection Field function – provides SB/SE Division taxpayers with
           post-filing services, managed by field collection programs to ensure timely, accurate case
           actions on all collection cases.
          Wage and Investment (W&I) and SB/SE Division Automated Collection System –
           provides support and oversight to the operation of all SB/SE and W&I Division call sites
           and support sites. Its mission is to collect delinquent taxes and returns through the fair
           and equitable application of the tax laws, including the use of enforcement tools when
           appropriate, and provide education to customers to ensure future compliance.

1
    See Appendix VI for a glossary of terms.
                                                                                               Page 1
                     The Enterprise Collection Strategy Organization Has Centralized
                          Management of the Collection Organization; However,
                      Performance Measures and Key Roles Need to Be Developed



          W&I and SB/SE Division Compliance Services Collection Operations – provides support
           services to taxpayers and to the Compliance organization through the administration of
           the various Collection programs.
          W&I Accounts Management function – provides service to taxpayers by responding to
           their tax law/account inquiries and adjusting tax accounts. In addition, it is responsible
           for providing taxpayers with information on the status of their tax returns/refunds and for
           resolving the majority of issues and questions to settle their accounts.
Even with over 16,000 Collection employees working enforcement programs, the amount of
unpaid assessments has continued to grow. Figure 1 shows that while enforcement revenue has
remained fairly constant over the past five years, unpaid assessments have risen each year to
$356 billion in Fiscal Year (FY) 2011.
                   Figure 1: Enforcement Revenue and Unpaid Assessments
                        From Fiscal Year 2008 Through Fiscal Year 2011




     Source: IRS FY 2007 through FY 2011 financial statements.2

The IRS does not have the resources to work all taxpayer delinquency cases. Cases that do not
meet minimum dollar threshholds are put into the Queue for future assignment if resources
become available. Figure 2 shows that approximately 1.1 million cases with unpaid assessments
of approximately $63 billion were in the Queue at the end of FY 2012.


2
    FY 2012 financial statements were not available at the time of this report.
                                                                                               Page 2
                The Enterprise Collection Strategy Organization Has Centralized
                     Management of the Collection Organization; However,
                 Performance Measures and Key Roles Need to Be Developed



       Figure 2: Number of Taxpayers and Amount Owed in Queue Inventory
                  From Fiscal Year 2008 Through Fiscal Year 2012




 Source: IRS FY 2008 through FY 2012 Collection Information System reports.

In February 2010, the Deputy Commissioner for Services and Enforcement chartered the
Collection Process Study (CPS) to conduct a broad-based review of the IRS’s collection
processes, identify opportunities for improvement, and recommend specific actions that could be
implemented to achieve an enhanced Collection organization. The study examined all areas
across the IRS enterprise engaged in, or supporting, collection activities. The goals established
at the beginning of the CPS were to:
      Assess the current state of Collection with respect to the effectiveness of policies,
       measurements, tools, treatments, technology, and organizational structure.
      Develop recommendations for improvements.
      Propose and conduct tests and pilots to evaluate improvements.
      Develop a preliminary vision and strategy for a future state of IRS collection processes.
      Develop a story that more clearly communicates the collection environment overall.
The CPS’s Organizational Structure and Alignment Team conducted a high-level assessment of
the IRS Collection organization’s structure to determine whether it met the needs of the IRS and
to develop recommendations for organizational improvements. The team concluded that even
though similar functions performed similar activities within the Collection organizations and
business units, resources were managed independently and not uniformly across the various
Collection divisions. Specifically,
      Collection policy authority resided in one organization within one operating division,
       while implementation authority resided in each of the individual Collection
       organizations.
                                                                                               Page 3
                  The Enterprise Collection Strategy Organization Has Centralized
                       Management of the Collection Organization; However,
                   Performance Measures and Key Roles Need to Be Developed



       Collection decisions were made by the individual operating divisions based on each
        division’s needs rather than determining the overall needs of the IRS.
       Collection strategy and plans were set independently by the individual organizations
        across two operating divisions. The IRS Collection organization lacked overall
        coordination and a standard method to prioritize activities.
In addition, because policy was “owned” by the Collection Field function but affected all of
Collection, it was often difficult to coordinate and implement changes promptly, effectively, and
transparently. Policy sometimes focused on a single organization or operating division’s needs,
rather than those of the IRS.
The CPS final report was issued in September 2010, and it included five recommendations based
on the Organizational Structure and Alignment Team’s assessment of the Collection
organization.3 One of the five recommendations was to create a unified Collection organization.
As a result, the Enterprise Collection Strategy (ECS) organization was created in January 2011
and officially established in October 2011.4 Figure 3 shows that the ECS organization became
the fourth Collection directorate, adding to the three directorates that already existed.
                  Figure 3: IRS Collection Organization Before and After
                          Establishment of the ECS Organization
                       Before                                                     After




     Source: The IRS Collection Process Study and our analysis of ECS documentation.




3
 See Appendix V for the CPS Organizational Structure and Alignment Team’s five recommendations.
4
 The ECS organization was designed and created in January 2011. However, it was not officially established until
October 2011 when 302 staff were transferred to the new organization.
                                                                                                         Page 4
                 The Enterprise Collection Strategy Organization Has Centralized
                      Management of the Collection Organization; However,
                  Performance Measures and Key Roles Need to Be Developed



The goal of the ECS organization is to improve organizational performance by reorganizing
Collection operations to eliminate redundancies and inconsistencies. The ECS represents
Collection operations from across the IRS.
The Internal Revenue Manual (IRM) contains specific requirements for the implementation of a
new organization. The guidance requires that the approving official document the approval in
writing and provide the initiating office any specific directions on when, how, and by whom the
reorganization will be implemented and evaluated.5 It also requires that once an initiative is
approved, a plan will be implemented that includes:
       A detailed timeline identifying major milestones.
       Defined roles and responsibilities.
       Identified risks and planned responses and contingencies.
       A communication plan addressing information needs.
       Measures and standards that can be used to compare the organization before and after the
        reorganization.
       A plan for evaluation of the completed initiative.6
Additionally, the Government Accountability Office’s Business Process Reengineering
Assessment Guide7 provides the need to establish a transition team to manage the implementation
process and develop a detailed implementation plan for changes. Once the implementation is
complete, the IRM requires that a final report be prepared assessing the completed organizational
change. The report should include evaluation criteria consistent with that identified in the plan
and a final employee/position reconciliation identifying the effect on the originally identified
affected employees and positions.
This review was performed at the SB/SE Division Headquarters in Washington, D.C., and the
W&I Division Headquarters in Atlanta, Georgia, during the period May through October 2012.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.



5
  IRM 1.1.4.4 (Aug. 12, 1997).
6
  IRM 1.1.4.8 (Feb. 8, 2011).
7
  Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-10.1.15
(May 1997).
                                                                                                   Page 5
                 The Enterprise Collection Strategy Organization Has Centralized
                      Management of the Collection Organization; However,
                  Performance Measures and Key Roles Need to Be Developed




                                    Results of Review

The Enterprise Collection Strategy Organization Has Centralized
Management of Collection Organizations
The ECS organization was officially established in October 2011 with 302 staff moving from the
three existing IRS Collection organizations (Field Collection, SB/SE Division Filing and
Payment Compliance, and W&I Division Filing and Payment Compliance). The ECS
organization includes four divisions.
       Collection Analytics, Automation, Inventory Selection and Delivery – uses technology
        and strategies to select and route collection cases for efficient and effective resolution;
        oversees programs, policy, and systems for various aspects of Collection; and provides
        end-user tools to help manage and process cases, all in an effort to improve productivity,
        increase revenue, and improve taxpayer voluntary compliance.
       Collection Policy – provides corporate-wide guidance on all aspects of collection
        processes that are common to large groups of taxpayers with similar characteristics and
        the development, design, and delivery of Collection program objectives, strategies, and
        policies.
       Collection Strategy and Organizational Performance – coordinates the formation of
        enterprise strategy and resource requests and monitors and reports on enterprise
        performance indicators.
       Enterprise Collection Planning and Governance – provides coordination and oversight of
        governing executive councils across Collection, establishes corporate guidance for new
        workstream initiatives, administers programs for potentially dangerous taxpayers and
        caution indicators, and serves as the liaison for the Communications and Stakeholder
        Outreach function to ensure that clear guidance and effective strategy are communicated.
When the ECS organization was established, the four divisions had a total of 21 groups, of which
13 were moved over intact from the three other Collection organizations with no changes to their
positions. The remaining eight groups included six with a mixture of staff from the other three
Collection organizations and two new groups with vacant positions to be filled.8 See Appendix
IV for the current detailed ECS organization chart.


8
 Since implementation, management reduced the number of groups from 21 to 18, including the elimination of one
of the new groups.
                                                                                                       Page 6
                The Enterprise Collection Strategy Organization Has Centralized
                     Management of the Collection Organization; However,
                 Performance Measures and Key Roles Need to Be Developed



The ECS organization created a mission to be the “one voice” for the Collection enterprise,
supporting employees and leaders by establishing and communicating the policies, strategies,
and governance for all Collection operations. The ECS staff is responsible for Collection
programs and coordinates with staff in the operating divisions to improve operations.
The ECS organization has made progress in coordinating
Collection efforts to address Collection staffing at a corporate level.   The ECS organization
The four directors responsible for Collection activities are now              represents all
working together to determine staffing needs for Collection. The          Collection operations
                                                                             across the IRS.
directors discuss staffing and make decisions based on corporate
priorities for Collection rather than on the needs of their individual
directorates.
Additionally, in FY 2012, the ECS organization developed an enterprise-wide Program Letter for
Collection. Before the ECS organization was implemented, separate program letters were
prepared by each organization within Collection. The Enterprise Program Letter included
information about how Collection as a whole would address the IRS’s goals of improving service
to make voluntary compliance easier and enforcing the law to ensure that everyone meets their
obligation to pay taxes. Specifically, the FY 2012 Collection Program Letter stated:
       …with the official stand-up of the new ECS organization and the full partnership with the
       Collection leadership from SB/SE Field Collection, SB/SE Campus Compliance Services,
       and W&I Compliance to develop solutions from an enterprise wide perspective. The ECS
       organization will serve as “one voice” on all Collection matters including strategy,
       budget, work plan development, policy, reporting, and innovation. It will also support
       Collection as a whole in meeting internal measurements, goals, and targets to improve
       our levels of service to the taxpaying public. This centralization of support will allow the
       operating units to primarily focus on their business priorities and operational issues that
       affect program execution important to our overall success.
Creating an Enterprise Program Letter helps unite the Collection organization by having
common goals and showing employees that the Collection directors are working together to
achieve these goals. Centralized Collection management enhances the administration of
Collection-wide resources and the potential for improvement of overall Collection organizational
performance.

Performance Measures Needed to Determine the Success of the
Enterprise Collection Strategy Organization Were Not Established
Performance measurement involves the ongoing monitoring and reporting of program
effectiveness and the progress made towards achieving established goals and objectives. In
Collection, program managers have developed and established a broad range of indicators to
measure the effectiveness of their compliance activities. For example, management tracks

                                                                                            Page 7
               The Enterprise Collection Strategy Organization Has Centralized
                    Management of the Collection Organization; However,
                Performance Measures and Key Roles Need to Be Developed



performance measures related to the cycle time for casework, the age of case inventory, and the
volume of enforcement activity such as liens, levies, and seizures. Performance measures are a
valuable tool to assess progress towards achieving goals and identifying areas for improvement.
When a function reorganizes, both Government Accountability Office and IRS guidance require
the establishment of measures and standards that can be used to compare the organization before
and after reorganization. In addition, IRS guidance requires that a final report be prepared to
evaluate the completed organization change. Performance measures should be determined early
in the process and used with numeric targets to assess how well the organization is meeting
improvement goals and achieving promised benefits.
The ECS’s goal is to improve Collection’s organizational performance. In order to determine if
the ECS organization met this goal, a means to measure ECS performance and tie that
performance into overall Collection results should be established. Performance measures for the
ECS organization could be a combination of existing Collection measures tied to ECS influence
and new ECS-specific measures tied to their progress in improving Collection’s organizational
performance.
However, performance measures were not established prior to the creation of the ECS
organization as required by the IRM. IRS management did not link the goals for existing
Collection organization performance measures to the impact of the ECS organization or create
ECS-specific performance measures. In June 2012, ECS management began tracking increases
in enforcement and case resolution efforts related to an initiative introduced and managed by the
ECS organization. While these increases were a positive result of ECS involvement, they are
limited to the initiative and do not reflect the ongoing influence of ECS on Collection-wide
operations. Current measures are not sufficient to determine if the ECS organization is meeting
its goal or achieving promised benefits.
IRS management stated that they did not develop ECS-specific performance measures because
they did not believe that they needed to measure performance of Headquarters operations.
However, existing IRM procedures for establishing and implementing new organizations provide
the framework for such measures. For example, management did not prepare a plan for the ECS
organization prior to approval. This plan would have included performance measures to evaluate
the transition to the new organization as well as a baseline to gauge ongoing performance of the
ECS organization. Additionally, management did not prepare a final report of the ECS
transition, which would have included an evaluation based on these performance measures.
Moving forward, the ECS organization’s goal of improving Collection’s organizational
performance will help to ensure that the Collection program is using its limited resources to
address the $356 billion delinquent tax and nonfiler inventories, so it is important that the IRS
measure progress towards achieving this goal. Establishing performance measures that evaluate
the effectiveness of the ECS would help managers and stakeholders make decisions about where


                                                                                           Page 8
               The Enterprise Collection Strategy Organization Has Centralized
                    Management of the Collection Organization; However,
                Performance Measures and Key Roles Need to Be Developed



to allocate resources, which programs are operating efficiently, and which programs need
improvements.

Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 1: Consider additional performance measures to assess the benefits of the
ECS organization, measure ongoing ECS operations, and determine the ECS’s effect on overall
Collection operations.
       Management’s Response: IRS management agreed with this recommendation.
       They will review the existing ECS performance measurement system to determine if key
       attributes of performance effectiveness and efficiency are addressed. The review will
       consider five key elements: clear metrics, relevant targets, effective performance
       tracking, regular performance discussions, and ownership. If gaps are identified in the
       performance measurement system, implementation dates will be established for each
       measure recommended based on data availability. Additionally, if new measures are
       identified, they will be implemented and reported effective in April 2014.
Recommendation 2: Prepare an evaluation report to document the results of the
reorganization and to analyze any need for changes. This report should include documentation
of ECS performance measures and results.
       Management’s Response: IRS management agreed with this recommendation. The
       final report of the ECS transition will involve a comparative analysis of the Collection
       organization prior to centralizing activities in the newly created ECS organization. A key
       component of the report is an assessment of the ECS organization’s progress in
       influencing improved Collection organizational performance.




                                                                                           Page 9
                 The Enterprise Collection Strategy Organization Has Centralized
                      Management of the Collection Organization; However,
                  Performance Measures and Key Roles Need to Be Developed



The Roles and Responsibilities of the Enterprise Collection Strategy
Organization Were Not Adequately Documented
The IRM, the Government Accountability Office’s Standards for Internal Controls in the
Federal Government,9 and the Office of Management and Budget’s Circular A-123 –
Management’s Responsibility for Internal Control all require that an agency clearly define key
areas of authority and responsibility and establish appropriate lines of reporting. To meet the
goal of improving performance, the ECS organization was designed to eliminate redundancy and
inconsistency by reorganizing Collection operations. In order to eliminate redundancies and
inconsistencies through reorganization, the roles and responsibilities of the prior organization
should be analyzed, and new, detailed roles and responsibilities should be developed for the new
organization.
The IRS developed a vision for the overall ECS organization, including a description of the role
of each of the four ECS divisions. However, IRS management did not document roles and
responsibilities for all of the groups under these divisions. Figure 4 shows that eight (38 percent)
of the 21 individual groups in the ECS organization were established without documented
responsibilities.
                              Figure 4: ECS Groups Established
                             Without Documented Responsibilities

                                                                               Groups Without
                                                                                Documented
                         ECS Division                            Groups        Responsibilities

        Collection Strategy and Organizational
                                                                    5                  1
        Performance
        Collection Analytics, Automation, Inventory
                                                                    5                  0
        Selection, and Delivery
        Enterprise Collection Planning and Governance               3                  1
        Collection Policy                                           8                  6
                              Total                                 21                 8
        Source: The IRS Intranet and ECS organization mission statements.




9
 Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1
(Nov. 1999).
                                                                                                  Page 10
                The Enterprise Collection Strategy Organization Has Centralized
                     Management of the Collection Organization; However,
                 Performance Measures and Key Roles Need to Be Developed



Additionally, only two of the 10 ECS employees we interviewed had guidance to perform their
specific jobs (both had the same manager). Both employees had developed the guidance for their
positions so that someone else could perform their duties if necessary. This type of guidance can
help define the roles and responsibilities, alleviate confusion about what staff was responsible
for, and provide a valuable resource to new staff.
Roles and responsibilities were overlooked because the IRS did not follow existing IRM
procedures in establishing and implementing the ECS organization. The IRS did not formally
approve the new organization or provide detailed guidance for its establishment. Written
approval and direction would have provided IRS management with guidance on roles and
responsibilities. In addition, the IRS did not have a stable transition team or follow a detailed
implementation plan during the transition to ensure that the required activities, including
defining roles and responsibilities, were completed.
ECS management stated that they did not redefine roles and responsibilities during the transition
to the ECS organization because many of the groups (13 of the 21) moved over intact from their
previous Collection organization. ECS management attempted to minimize potential confusion
about roles and responsibilities during the transition process by communicating to employees
that they would bring their work with them so there were no changes. Because these groups and
individuals would be performing work similar to what they did in their previous positions,
management did not believe they needed to determine if roles and responsibilities were already
defined or if there was any guidance for the specific jobs. However, we believe this position is
not contributing to the ECS organization’s goal of consolidating operations to eliminate
redundancies and inconsistencies. On the contrary, we believe that defining roles and
responsibilities is a fundamental first step to identify any redundancies and inconsistencies.
Since the ECS organization was officially established in October 2011, there have been
continuing questions in Collection about who was responsible for work between the ECS and the
other Collection organizations. With the addition of the new ECS organization, there are now
four directors responsible for Collection activities. Three of the directors (ECS, Collection Field
function, and Campus Compliance Services function) are under the SB/SE Division and the
other, Director, Compliance, is in the W&I Division. The ECS organization does not have line
authority over the other Collection organizations/functions but is responsible for coordinating
Collection policy, staffing, and programs.
In March 2012, Collection focus groups consisting of 39 Collection senior leadership staff
(including executives) participated in discussions about the issues facing Collection. One of the
major issues discussed throughout the focus groups was the lack of role clarity. In August 2012,
the Collection executives and managers met to discuss the issues identified from the focus
groups and the continuing issues with the Collection organization. These issues, which all stem
from a lack of clear roles and responsibilities, included:



                                                                                            Page 11
               The Enterprise Collection Strategy Organization Has Centralized
                    Management of the Collection Organization; However,
                Performance Measures and Key Roles Need to Be Developed



      Continuing Redundancies – There are continuing redundancies in the Collection
       organization. For example, the ECS organization has responsibility for all Collection
       reports. However, other offices and functions are still developing and implementing
       reports for directors and new managers. None of the prior reports are being deleted and
       are still being generated. Management found many redundancies within the reports and
       is now considering reducing the number of available reports to those that are being used.
       This will help save the IRS’s limited resources.
      Lack of Communication and Collaboration – Management is working on establishing
       protocol for communication between the Collection organizations. This protocol
       includes the need for analysts to acquire a greater awareness of the different Collection
       organizations and procedures for improved collaboration. Also, management needs to
       ensure that employees are aligned properly with their work and in the correct group.
      Insufficient Definition of Policy and Procedures – There have been questions about what
       is considered policy and what is considered procedure. This affects who is responsible
       for which IRM sections since the ECS is responsible for the policy and the other
       Collection organizations are responsible for the procedures. Some IRM sections provide
       both policy and procedure, so management needs to define and clarify IRM
       responsibilities for each section so that all sections can be kept accurate and current.
Without clearly defined roles and responsibilities, it is more difficult to identify any
redundancies and inconsistencies that may be present. As a result, redundancies and
inconsistencies may continue to exist among the two operating divisions and four directors
responsible for Collection activities. These conditions could impede Collection activities in the
field and campuses, and they are inefficient. Given the growing inventory of delinquent taxes
and unfiled returns, the importance of operating efficiency within Collection is clear. The ECS
organization was established with a goal of improving Collection operations by eliminating
redundancies and inconsistencies. If these conditions cannot be identified, it is difficult for
management to determine if the ECS organization is making progress towards its goal and to
identify potential areas for improvement.

Recommendation
Recommendation 3: The Deputy Commissioner for Services and Enforcement should clearly
define the roles and responsibilities of all groups within the ECS organization and review
individual positions to determine if further documentation is needed to provide detail for specific
job responsibilities. These new roles and responsibilities should be reviewed to ensure that
redundancies and inconsistencies have been eliminated.
       Management’s Response: IRS management agreed with this recommendation. A
       team has been convened, with representation from all Collection operating units, to
       clearly define the roles and responsibilities on key interaction areas applicable to
                                                                                           Page 12
       The Enterprise Collection Strategy Organization Has Centralized
            Management of the Collection Organization; However,
        Performance Measures and Key Roles Need to Be Developed



Collection operations. A document will be finalized and shared throughout all Collection
operating units. Once the roles and responsibilities document is completed, a gap
analysis will be developed to assess any further redundancies or inconsistencies.
Additionally, to further define roles and responsibilities for each group, IRMs 1.1.13
(W&I Division) and 1.1.16 (SB/SE Division) will be updated.




                                                                                Page 13
               The Enterprise Collection Strategy Organization Has Centralized
                    Management of the Collection Organization; However,
                Performance Measures and Key Roles Need to Be Developed



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective was to determine the IRS’s effectiveness in establishing and implementing
the ECS organization to achieve its goal of improving organizational performance by
reorganizing Collection operations to eliminate redundancies and inconsistencies. To
accomplish this objective, we:
I.     Determined if the IRS properly planned for and implemented the ECS organization.
       A. Assessed compliance with applicable laws, regulations, and directives.
       B. Determined how the design team planned for and conducted the design phase in
          establishing the ECS organization.
       C. Determined how the implementation team conducted the transition and
          implementation activities, including any need for delegation orders, for the ECS
          organization.
II.    Determined if the ECS organization established sufficient performance measures and if it
       was progressing towards its goal of improving organizational performance.
       A. Determined the impact of the new ECS organization on Collection staffing levels.
       B. Identified performance measures being used to evaluate the success of the ECS
          organization in achieving its goal to improve Collection processes.
       C. Determined the status of the CPS recommendations to improve Collection operations.
III.   Determined the effectiveness of the ECS organization in reorganizing Collection
       operations to eliminate redundancies and inconsistencies.
       A. Interviewed Collection executives to determine if the new ECS organization has
          addressed their concerns about the Collection organization, including if resources are
          being corporately managed across Collection instead of independently and if policies
          and processes are being more uniformly managed. We also determined if the
          executives have any concerns with the implementation of the new organization or
          how it is currently operating.
       B. Assessed the ECS organization’s roles and responsibilities to determine if it is
          effectively achieving its mission and goals.




                                                                                             Page 14
               The Enterprise Collection Strategy Organization Has Centralized
                    Management of the Collection Organization; However,
                Performance Measures and Key Roles Need to Be Developed



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRM procedures for reorganizations and
performance measures. We evaluated these controls by reviewing transition documentation and
interviewing executives, managers, and employees.




                                                                                       Page 15
              The Enterprise Collection Strategy Organization Has Centralized
                   Management of the Collection Organization; However,
               Performance Measures and Key Roles Need to Be Developed



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank J. Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Timothy F. Greiner, Acting Director
Glen J. Rhoades, Audit Manager
Beverly K. Tamanaha, Senior Auditor
Charles Nall, Auditor




                                                                                     Page 16
              The Enterprise Collection Strategy Organization Has Centralized
                   Management of the Collection Organization; However,
               Performance Measures and Key Roles Need to Be Developed



                                                                           Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:CS
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                   Page 17
                 The Enterprise Collection Strategy Organization Has Centralized
                      Management of the Collection Organization; However,
                  Performance Measures and Key Roles Need to Be Developed



                                                                                         Appendix IV

   Enterprise Collection Strategy Organization Chart

The ECS organization was officially established in October 2011 with 302 staff moving from the
three existing IRS Collection organizations (Field Collection, SB/SE Division Filing and
Payment Compliance, and W&I Division Filing and Payment Compliance). The ECS
organization is functionally located within the SB/SE Division and represents Collection
operations across the IRS. This organizational chart shows the ECS organization as of
July 23, 2012.




                                                                                                             	
*Groups that moved to the ECS organization with a mixture of staff from the other three Collection groups.
**New group created with the formation of the ECS organization.



                                                                                                   Page 18
                 The Enterprise Collection Strategy Organization Has Centralized
                      Management of the Collection Organization; However,
                  Performance Measures and Key Roles Need to Be Developed



                                                                                                 Appendix V

           Collection Process Study’s Organizational
          Structure and Alignment Recommendations

The following table provides the five recommendations from the CPS Organizational Structure
and Alignment Team’s assessment of the Collection organization.

    #      Recommendation                        Brief Description                               Status

8.4.1   Establish a Unified         Provide a unified Collection organization with   The ECS organization was
        Collection Organization     strategy, policy, and governance functions       created with a director who
                                    centralized under a single operating unit that   works with the other three
                                    reports directly to a new Deputy                 Collection directors. The four
                                    Commissioner within the SB/SE Division.          directors report to the Deputy
                                                                                     Commissioner for Services and
                                                                                     Enforcement.

8.4.2   Right-Size the Collection   Reduce the Collection Field function to          This is being addressed in
                       1
        Field function, Optimize    3,661–4,045 full-time equivalents through        response to a recommendation
        Collection Resources,       attrition while conducting a more                from a prior Treasury Inspector
        and Perform an              comprehensive study to identify optimal          General for Tax Administration
                                                                                            2
        Enterprise-Wide             staffing levels across the collection process.   report. The corrective action
        Workload Study              Redirect resources saved by the attrition to     due date is March 15, 2013.
                                    other areas and focus on those that would
                                    have the largest impact on increasing dollars
                                    collected and coverage, the Automated
                                    Collection System, or upstream initiatives.

8.4.3   Expand the Use of Tax       Pilot the addition of tax examiners to           On August 8, 2012, we were
        Examiners in Collection     Collection Field function staffing to work       informed that this was not
        Field function Offices      lower priority cases and perform certain         pursued in the manner as
                                    administrative duties in order to give revenue   outlined in the CPS report.
                                    officers more time to focus on complex           Instead of establishing a new
                                    cases. This pilot would test the effectiveness   position, the types of work
                                    of the tax examiner position to reduce the       were reviewed and assigned
                                    productive but currently unworked cases,         based on the skill set, grade,
                                    thereby reducing the Tax Gap.                    and authority level that could
                                                                                     process the work between the
                                                                                     Automated Collection System
                                                                                     and Field Collection staff.




1
 See Appendix VI for a glossary of terms.
2
 Treasury Inspector General for Tax Administration, Ref. No. 2011-30-039, Challenges Remain to Balance
Revenue Officer Staffing With Attrition and Workload Demands, p. 7 (May 2011).
                                                                                                          Page 19
                     The Enterprise Collection Strategy Organization Has Centralized
                          Management of the Collection Organization; However,
                      Performance Measures and Key Roles Need to Be Developed



     #        Recommendation                         Brief Description                             Status

8.4.4      Pilot Phase II of Hybrid     Implement the IRS Corporate Approach to        Same as Recommendation
           Positions in the             Collection Inventory3 recommendation for a     # 8.4.3.
           Automated Collection         Phase II pilot of the Hybrid position in the
           System                       Automated Collection System at the campus.
                                        Hybrid sites apply field techniques to
                                        Collection from a campus environment,
                                        benefiting the organization by using lower
                                        salary dollars to increase Collection
                                        coverage and dollars collected.

8.4.5      Centralize Processing of     Centralize the processing of certain           We were informed that this
           Certain Lien Certificates    lien-related certificates to leverage the      issue was being worked on
                                        efficiencies of a single campus processing     before this recommendation
                                        operation and improve service to taxpayers     was made. It was included in
                                        and internal stakeholders.                     the CPS recommendations to
                                                                                       elicit a push to get it done.
                                                                                       However, we were unable to
                                                                                       obtain an official response on
                                                                                       the status of this
                                                                                       recommendation.




3
    IRS, Hybrid Project Observations and Recommendations Final Report (Mar. 2009).
                                                                                                             Page 20
                The Enterprise Collection Strategy Organization Has Centralized
                     Management of the Collection Organization; However,
                 Performance Measures and Key Roles Need to Be Developed



                                                                                Appendix VI

                                 Glossary of Terms

Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Field function – The unit in the Area Offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Collection Statute Expiration Date – A time period established by law to collect taxes. The
Collection Statute Expiration Date is normally 10 years from the date of an assessment.
Cycle Time – Elapsed calendar days on completed investigations.
Enterprise Program Letter – Prepared annually and provides the mission, goals, and strategic
focus of the organization.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
Full-Time Equivalent – A measure of labor hours in which one full-time equivalent is equal to
eight hours multiplied by the number of compensable days in a particular fiscal year. For
FY 2011, one FTE was equal to 2,088 staff hours. For FY 2012, one FTE was equal to
2,080 staff hours.
Installment Agreement – An arrangement by which the IRS allows taxpayers to pay liabilities
over time.
Internal Revenue Manual – The manual that contains the policies, procedures, instructions,
guidelines, and delegations of authority that direct the operation and administration of the IRS.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Offer in Compromise – A proposal for settlement of tax liability for an amount less than that
previously assessed (or unassessed) or a liability for specific penalties assessed (or unassessed).


                                                                                            Page 21
                  The Enterprise Collection Strategy Organization Has Centralized
                       Management of the Collection Organization; However,
                   Performance Measures and Key Roles Need to Be Developed



Operating Division – The IRS Restructuring and Reform Act of 19981 prompted the IRS to
reorganize itself into operating divisions to closely resemble the private sector model of
organizing around customers with similar needs. That reorganization resulted in the current four
primary operating divisions at the IRS: Wage and Investment, Large Business and International,
Small Business/Self-Employed, and Tax Exempt and Government Entities.
Queue – A holding file for cases pending assignment.
Seizures – The taking of a taxpayer’s property to satisfy his or her outstanding tax liability.
Tax Gap – The estimated difference between the amount of tax that taxpayers should pay and
the amount that is paid voluntarily and on time.
Taxpayer Delinquency Investigation – An unfiled tax return for a taxpayer. One taxpayer
delinquency investigation exists for all tax periods.
Taxpayer Delinquent Account – A balance due account of a taxpayer. A separate taxpayer
delinquent account exists for each tax period.
Trust Fund – Money withheld from an employee’s wages (income, Social Security, and
Medicare taxes) by an employer and held in trust until paid to the Department of the Treasury.
Unpaid Assessments – Legally enforceable claims against taxpayers. Unpaid assessments
consist of taxes, penalties, and interest that have not been collected or abated. Unpaid
assessments result from taxpayers filing returns without sufficient payments as well as from IRS
enforcement programs.




1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 22
   The Enterprise Collection Strategy Organization Has Centralized
        Management of the Collection Organization; However,
    Performance Measures and Key Roles Need to Be Developed



                                                   Appendix VII

Management’s Response to the Draft Report




                                                            Page 23
The Enterprise Collection Strategy Organization Has Centralized
     Management of the Collection Organization; However,
 Performance Measures and Key Roles Need to Be Developed




                                                         Page 24
The Enterprise Collection Strategy Organization Has Centralized
     Management of the Collection Organization; However,
 Performance Measures and Key Roles Need to Be Developed




                                                         Page 25
The Enterprise Collection Strategy Organization Has Centralized
     Management of the Collection Organization; However,
 Performance Measures and Key Roles Need to Be Developed




                                                         Page 26
